<html>
<title> - ONE YEAR LATER: HAVE TSA AIRPORT SECURITY CHECKPOINTS IMPROVED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






    ONE YEAR LATER: HAVE TSA AIRPORT SECURITY CHECKPOINTS IMPROVED?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2007

                               __________

                           Serial No. 110-92

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                ------

                     U.S. GOVERNMENT PRINTING OFFICE

45-241 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 15, 2007................................     1
Statement of:
    Kutz, Gregory D., Managing Director, Forensic Audits and 
      Special Investigations, Government Accountability Office, 
      accompanied by John Cooney, Assistant Director, Forensic 
      Audits and Special Investigations, Government 
      Accountability Office; and Edmund ``Kip'' Hawley, 
      Administrator, Transportation Security Administration......    11
        Hawley, Edmund ``Kip''...................................    27
        Kutz, Gregory D..........................................    11
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................     7
    Hawley, Edmund ``Kip'', Administrator, Transportation 
      Security Administration, prepared statement of.............    31
    Kutz, Gregory D., Managing Director, Forensic Audits and 
      Special Investigations, Government Accountability Office, 
      prepared statement of......................................    14
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, letter dated March 28, 2006..............    41
    Sali, Hon. Bill, a Representative in Congress from the State 
      of Idaho, prepared statement of............................    66
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    62
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     3





 
    ONE YEAR LATER: HAVE TSA AIRPORT SECURITY CHECKPOINTS IMPROVED?

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Tierney, Watson, 
Higgins, Yarmuth, Braley, Sarbanes, Davis of Virginia, Shays, 
Mica, Issa, Westmoreland, and Sali.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; David Rapallo, chief investigative counsel; 
John Williams, deputy chief investigative counsel; Steve 
Glickman and Susanne Sachsman, counsels; Earley Green, chief 
clerk; Teresa Coufal, deputy clerk; Caren Auchman and Ella 
Hoffman, press assistants; Leneal Scott, information systems 
manager; Kerry Gutknecht and William Ragland, staff assistants; 
Sam Buffone, special assistant; David Marin, minority staff 
director; Jennifer Safavian, minority chief counsel for 
oversight and investigations; Keith Ausbrook, minority general 
counsel; Janice Spector and Christopher Bright, minority 
professional staff members; John Cuaderes, minority senior 
investigator and policy advisor; Patrick Lyden, minority 
parliamentarian and member services coordinator; Benjamin 
Chance, minority clerk; Meredith Liberty, minority staff 
assistant and correspondence coordinator; and Todd Greenwood, 
minority research assistant.
    Chairman Waxman. The meeting of the committee will please 
come to order.
    Today we are holding a hearing on airport security. Last 
year, the Government Accountability Office tested the 
effectiveness of airport security checkpoints by conducting 
undercover missions to bring explosives through airport 
screening security checkpoints at 21 locations. The 
Transportation Security Administration failed all 21 of those 
tests. The purpose of today's hearing is to determine whether 
TSA has improved over the last year. GAO is here again to tell 
us about the results of its most recent investigation.
    This committee comes to this issue in a bipartisan manner. 
This investigation was jointly requested by our ranking member, 
Tom Davis, Benny Thompson, the Chair of the Homeland Security 
Committee and myself. A bipartisan approach is critical, 
because explosives on airplanes are a dangerous threat.
    In August 2006, terrorists plotted to bring liquid 
explosives onto eight flights bound for the United States. The 
British thwarted that threat, but there are new ones on the 
horizon. The terrorist threat to our airlines is constantly 
evolving. The question is, is the Transportation Security 
Administration keeping up?
    To help answer this question, we asked GAO to do another 
round of covert tests. Congress and the traveling public we 
represent have the right to know whether TSA is effectively 
addressing this threat. Unfortunately, the news is not good. 
GAO's undercover agents once again succeeded in getting 
dangerous materials through airport security checkpoints.
    Last year, the co-chairman of the 9/11 Commission spoke 
publicly about the fact that TSA failed GAO's tests. Thomas 
Kane said he was dismayed because ``I thought the Department of 
Homeland Security was making some progress on this, and 
evidently they are not.'' And Lee Hamilton stated that ``The 
fact that so many airports failed this test is a hugely 
important story which the American traveler is entitled to 
know.''
    The Homeland Security Department promised to plug these 
holes. But what we will hear from GAO today is that the 
Department is not succeeding. The Transportation Security 
Administration has had 6 years and has spent billions of 
taxpayers' dollars, yet our airlines remain vulnerable. That is 
an embarrassing and dangerous record. I hope today's hearing 
will begin to point the way toward reforms that are urgently 
needed. We have to fix this problem.
    I want to now recognize Ranking Member Tom Davis.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Davis of Virginia. Thank you, Mr. Chairman. Thank you 
very much for holding this hearing. It is indeed bipartisan; 
this is not about red or blue, it is about red, white and blue, 
and defending the homeland.
    In several days, families in record numbers will begin 
their travels to celebrate Thanksgiving. For many who travel by 
plane, their journey will start with long lines to reach the 
airport and then to park. These will be followed by even 
longer, more agonizing lines to get boarding passes and check 
luggage. These will be followed by the most torturous line of 
all, the one that leads to the Transportation Security Agency 
checkpoint.
    Since 9/11, people have become accustomed to the added 
security procedures associated with air travel. Although it 
takes longer to board an aircraft and there are more 
restrictions on what can be carried onto a plane, the public 
generally has been willing to endure these inconveniences for 
the benefit of safety. It is safe to say, though, that the 
flying public would not be so understanding if people came to 
believe these inconveniences do not assure security.
    In August 2006, British authorities discovered a plot to 
blow up trans-Atlantic aircraft using explosives made from 
common liquids. In response to this new threat, TSA implemented 
what is known as the 3-1-1 or the 3-1-1 policy, which permits 
passengers to carry 3 ounces of liquids or gels aboard a plane 
in 1 quart-sized plastic bag. In theory, strict limits on the 
amount of liquids that passengers can carry will prevent a bomb 
from being constructed.
    Today, we will hear testimony from the Government 
Accountability Office on how its agents successfully got past 
TSA checkpoints at several airports with common liquids that, 
when combined, could have constituted an explosive device large 
enough to bring down a commercial aircraft. That is obviously 
not what Congress or the public want to hear.
    A little more than 2 years ago, I chaired a similar hearing 
on the adequacy of TSA's security at airports. Then TSA leaders 
testified the solution was more time, more resources and better 
technology. They have had all three. Unfortunately, as this 
latest GAO report shows, TSA still cannot consistently detect 
or prevent prohibited items from being carried onto aircraft. 
We have to do better.
    I understand the threat evolves, as our enemies learn more 
about our improved security and take steps to react. TSA has to 
do the same. In fact, TSA just can't react, the agency has to 
be proactive and stay on offense.
    I am pleased to see Administrator Hawley in his opening 
statement acknowledge what GAO was able to do and the need for 
TSA to do better. But his words need to trigger strong actions 
and tangible results.
    Mr. Chairman, as we approach the beginning of the 2007 
holiday season and the flying public begins to travel, it is 
important to remember the American people rely on TSA to do 
everything possible to ensure their safety. It is not enough to 
identify gaps. These gaps have to be addressed aggressively and 
consistently.
    Flying these days is stressful enough. The commercial air 
travel industry is straining under serious cost and performance 
pressures. But no one can afford to let security challenges get 
lost in the shuffle. We need to understand how TSA proposes to 
strengthen the system, increase vigilance and deter those who 
seek to exploit the vulnerabilities of so fragile a network. 
The next baggie of prohibited liquids may not be a test.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Waxman. Thank you very much, Mr. Davis.
    Ordinarily it would be just the two of us making opening 
statements. But we have had a request from Mr. Mica, who is the 
ranking member of the legislative committee on transportation 
issues, so I know he wants to give a statement. Let me invite 
any Member who wishes to make a statement to do so at this 
time.
    Let me recognize Mr. Mica first.
    Mr. Mica. First of all, Mr. Waxman, you are going to 
probably fall out of your chair, but I want to take this 
opportunity to publicly thank you. I think what you are doing 
today is probably one of the best hearings that we will do for 
the American public this entire year. Henry Waxman, I really 
appreciate your following up on one of the most important 
threats we face as a Nation. You have also done something that 
I was unable to do, make the public aware of the failure of our 
security screening system. I think that is very important.
    In fact, I thought of even breaching security or classified 
information when I first asked GAO, when I was chairman. And 
your staff did an excellent job of detailing what has taken 
place in previous tests and previous failures. If this was just 
this failure, it would still be a problem. But this is 
unfortunately a record of failure, which you have detailed and 
you also have made public. This is an open society, and the 
public has a right to know.
    Mr. Hawley is going to tell you about a layered security 
system with 19 levels of security. I read his testimony. The 
last one is the public. I am telling you, this is one of the 
most serious threats that we face as a Nation. Because these 
people are out to get us. This has been a cat and mouse game 
since before September 11, 2001. No one should let down their 
guard on this. If you just look at the history of what they 
have tried to do, they scoped the system in 2001, they found 
our vulnerabilities. We didn't have standards for screeners, we 
didn't ban box cutters, we didn't have rules in place to deal 
with a hijacking of a plane, the failure of government.
    If you look at the sophistication of what they have done 
just of late, the Richard Reid shoe bomb was a very 
sophisticated effort to take down multiple aircraft. If you 
look at the liquid bombs in the London case, the same thing, an 
evolving sophistication to take down multiple aircraft. If you 
think 9/11 was something, folks, using non-traditional 
explosives like Mr. Cooney and GAO has used is the next step in 
this process. We have tried to put in place layers of security 
to deal with that.
    I have some very specific questions, because I didn't feel 
that the hand-off to the Democrat side was well done. And I am 
going to go into the details of the meeting that took place 
when we really handed this off to the other team, who has the 
same interests that I had. I don't think that they got the full 
story, and today we are going to hear the full story due to 
what Mr. Waxman has been able to make public.
    So finally, the good thing about what this is going to do 
is make the public aware that they are the last link in this. 
We have put other links in, and Mr. Hawley will describe them, 
not as fast and not as well with technology or training of 
personnel or placement of personnel to deal with this 
situation. But we do have a failure of a system. It needs to be 
publicly known, and the public can help us, because they can be 
alert. Probably the best thing that they are going to deal with 
today is congested aircraft, which will mean that those planes 
are full. But they are full of Americans and people who can 
help us in an effort to detect this threat. You are going to 
hear more about it.
    So Mr. Waxman, I thank you on behalf of the American people 
for what you are doing today and making them aware. They are 
going to have to be partners with us to make certain that we 
don't repeat a national catastrophe. Thank you.
    Chairman Waxman. Thank you, Mr. Mica.
    Let me call on any other Member--Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I too thank you for holding 
this hearing. I am glad that it is truly a bipartisan hearing. 
I, like Mr. Mica, am a senior member of the Transportation 
Committee. I am chairman of the Coast Guard Subcommittee. We 
spend a phenomenal amount of time and resources trying to guard 
our ports. It seems that we had taken for granted, while we 
were trying to make sure our ports were safe, that our airports 
were very safe.
    And the fact is that so many people, when I think about GAO 
testing 21 airports last year and getting through every single 
one of them, I didn't say 20 of them, I said every single one 
of them, it makes you wonder. The fact is that my constituents 
are paying more for airline tickets, and part of the increase 
in price is to cover the TSA. Then they of course stand in the 
long lines and they are very patient, everybody from the little 
children to senior citizens going through all kinds of 
procedures, only to find out that we could do better.
    Mr. Chairman, a few years ago, many years ago when I 
visited Israel, I will never forget a statement that they said 
to me, and it is something that I have thought about a lot. 
What they said was, if we are not better, we will not be. If we 
are not better, we will not be. I think we have to be better. 
And I think we can do better. Americans across the country will 
be traveling next week for the Thanksgiving holiday. They are 
going to go through a lot. But they will be under the 
assumption that they are safe because they see what they go 
through.
    So I am hoping that this hearing will shed some light, but 
most importantly, I am hoping that it will let us discover what 
the true problems may be. Are we mired in an atmosphere of 
mediocrity? Are we in need of better detection equipment? Are 
there human error issues here? I don't know. We need to find 
out all of these things, so that we can be the very best we can 
be. We must, by the way, have very, very high expectations.
    It is in the DNA of every cell of my brain and probably 
every American's brain, seeing those planes on 9/11 fly into 
the World Trade Centers. We never want that to happen again. So 
Mr. Chairman, I think this hearing will go a long way toward 
making sure that we are better. Because if we are not better, 
we will not be. With that, I yield back.
    Chairman Waxman. Thank you very much, Mr. Cummings.
    Does any other Member wish to be recognized? Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. A 30 second 
intervention to thank you, Mr. Chairman, as well, in working 
with Mr. Davis and Mr. Thompson. The issue for me was 
heightened in the early 1980's when a plane was blown out of 
the sky because of drug terrorists who were involved. We were 
shown back in the early 1990's that just a bottle of gin with 
basically liquid explosives next to a radio next to a carton of 
cigarettes, and the radio was the detonator. And another one 
was just a mat on the bottom of a suitcase that was an 
explosive, non-detectable.
    I will just end by saying what is extraordinarily alarming 
to me is this isn't 21 break-ins, in a sense, out of 100. This 
is 21 out of 21 and that to me is extraordinarily unsettling 
and makes me question whether we are going to see any success 
in the near future. Thank you, Mr. Chairman, again.
    Chairman Waxman. Thank you, Mr. Shays. Do any other Members 
wish to be recognized? If not, I want to welcome our witnesses 
here today. We have with us Mr. Gregory D. Kutz, the Managing 
Director of Forensic Audits and Special Investigations, from 
the Government Accountability Office. He is accompanied by Mr. 
John Cooney, Assistant Director of Forensic Audits and Special 
Investigations, Government Accountability Office. And the 
Honorable Edmund ``Kip'' Hawley, the Administrator of the 
Transportation Security Administration.
    We are grateful to you for being here today. It is the 
practice of this committee that all testimony is taken under 
oath, so I would like to ask you if you would please stand and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. Let the record indicate that each of the 
witnesses answered in the affirmative.
    Mr. Kutz, I want you to start off. Your prepared 
statements, all of you, will be in the record, and we would 
like to ask you to try to limit the oral presentation. We won't 
be strict about this, but we will have a clock that will 
indicate when the 5-minutes is up. Thank you.

  STATEMENTS OF GREGORY D. KUTZ, MANAGING DIRECTOR, FORENSIC 
 AUDITS AND SPECIAL INVESTIGATIONS, GOVERNMENT ACCOUNTABILITY 
    OFFICE, ACCOMPANIED BY JOHN COONEY, ASSISTANT DIRECTOR, 
    FORENSIC AUDITS AND SPECIAL INVESTIGATIONS, GOVERNMENT 
       ACCOUNTABILITY OFFICE; AND EDMUND ``KIP'' HAWLEY, 
     ADMINISTRATOR, TRANSPORTATION SECURITY ADMINISTRATION

                  STATEMENT OF GREGORY D. KUTZ

    Mr. Kutz. Mr. Chairman and members of the committee, thank 
you for the opportunity to discuss airport security. In March 
2006, we reported that investigators boarded commercial 
aircraft with explosive devices in their carry-on luggage. At 
the request of this committee, we performed additional covert 
testing of airport security in 2007. Today's testimony 
highlights the results of our testing.
    It is important to note that we worked closely with TSA to 
make sure that my testimony does not have any classified or 
sensitive security information.
    My testimony today has two parts. First, I will discuss 
what we did; and second, I will discuss the results of our 
covert tests. First, using information available on the 
Internet, we were able to identify devices that could severely 
damage an aircraft and jeopardize the safety of its passengers. 
The first device was an improvised explosive device [IED], 
containing two parts. The first part, a liquid explosive; the 
second part, a low-yield detonator.
    Our 2006 work showed that the detonator itself could 
function as an IED. However, using this detonator to ignite the 
liquid explosive results in a more powerful device.
    The second device was an improvised incendiary device, or 
IID. These types of devices do not explode, but instead create 
intense fire, heat and noxious fumes. Our incendiary device was 
created by combining products prohibited by TSA from carry-on 
luggage. The components for both our devices were purchased at 
local stores and on the Internet for less than $150.
    We tested the effectiveness of our devices in partnership 
with a local law enforcement agency and at a national 
laboratory. As you requested, I will show a short video at the 
end of my presentation that shows the results of these tests. 
As the video will show, our devices could cause severe damage 
to an aircraft and threaten the safety of its passengers.
    Using only publicly available information which we do for 
all of our covert testing, we devised methods to conceal the 
components for these devices in our carry-on luggage and on our 
persons. As with all FSI testing, this was a covert, or Red 
Team test. In other words, very few people at GAO knew what we 
were doing and nobody at TSA was aware in advance of our 
testing.
    Moving on to our results, we successfully passed through 
TSA checkpoints with components for several explosive devices 
and an incendiary device. These prohibited items were concealed 
in our carry-on luggage and on our persons. Our testing was 
done at 19 airports across the country, including those that 
employ private screeners. We found no difference in the results 
for TSA employees and the privately contracted screening 
employees.
    In most cases, security officers appeared to follow TSA 
procedures. However, we did identify several vulnerabilities. 
For example, most travelers are aware of the 3-1-1 rule, 
prohibiting certain liquids and gels aboard the aircraft. We 
were able to bring a liquid component of the incendiary device 
through checkpoints undetected by studying policies related to 
this process.
    Also in two instances, our investigators were selected for 
a secondary inspection. However, in both cases, the security 
officer did not detect the prohibited items that our 
investigators carried on board the aircraft. One of our 
suggestions for TSA is to consider improved search techniques, 
including enhanced pat-downs.
    In conclusion, our testing shows that a terrorist group 
using publicly available information could bring explosive and 
incendiary devices on board an aircraft undetected. TSA faces 
the monumental challenge of balancing security with the 
efficient movement of passengers. Our work clearly shows the 
increased security risk of the current policy of allowing 
substantial carry-on luggage aboard aircraft. Absent changes in 
the carry-on policy, we believe that risks can be reduced 
through improvements in human capital, process and technology.
    As you requested, we will now show a short video. I want to 
just briefly discuss what the video will show. The first part 
of the video is the IED detonator I described, which you will 
see used on an automobile. The second part of the video is the 
liquid explosive, which is ignited by the IED detonator. The 
third part will be the incendiary device that I mentioned.
    So if we could show the video.
    [Video shown.]
    Mr. Kutz. Mr. Chairman, this ends our statement. Special 
Agent Cooney and I look forward to your questions.
    [The prepared statement of Mr. Kutz follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Waxman. Thank you very much.
    Mr. Cooney, did you have a statement?
    Mr. Cooney. No, I don't, Mr. Chairman, but I will be able 
to answer your questions at the appropriate time.
    Chairman Waxman. Very good. Thank you.
    Mr. Hawley.

               STATEMENT OF EDMUND ``KIP'' HAWLEY

    Mr. Hawley. Thank you, Mr. Chairman, Ranking Member Davis, 
members of the committee. I also thank you for having this 
hearing and drawing attention to these issues. I particularly 
appreciate the work of the chairman and the ranking member and 
their staffs, along with my colleagues from the GAO, to protect 
sensitive information. I think this is, as Mr. Mica mentioned, 
an extraordinarily important issue that we deal with openly and 
transparently.
    The videos that we saw a minute ago and the play on the 
television are noteworthy and certainly get your attention. I 
think the key point to it is, there are vulnerabilities in 
every system of security. What we are engaged in is risk 
management. As we look at risk management, it looks at an IED 
that would have the capacity of taking an airplane down. There 
are many, many, many steps, including making the bomb, getting 
components through, perhaps assembling them, all those various 
steps. And we look at the whole system.
    And the 19 layers of security that Mr. Mica mentioned and I 
put in my opening statement are like numbers in a combination 
lock. If you find one number to a 19 number combination, you 
have one number. What we have done is identify and understand 
the vulnerabilities in our system, and there are 
vulnerabilities, and then put in place other layers to 
compensate for them.
    I would like to just give a quick summary. In August 2005, 
we identified, I came on the job in July 2005. We looked at 
what are the vulnerabilities. We looked at the technology 
vulnerabilities, we looked at the people vulnerabilities and we 
looked at our strategy vulnerabilities. We identified that we 
had work to do in all three areas. We needed to dramatically 
upgrade the technology that we have at checkpoints for the 
point of eliminating the possibility of bringing on IED 
components, not the assembled bomb, but the components, a much, 
much more difficult task.
    So we re-trained the entire TSA work force with 
professional bomb techs directed at that, and changed our 
protocols to require us to train and test to the standard of 
IED components. And to put these tests in context, and I 
appreciate the work, they are done for a good purpose, they 
yield valuable information, but it is important to stay 
focused, not get panicked by looking at one particular number 
in that combination lock and worrying about the whole system. 
There are issues that need to be addressed and I welcome 
discussing them.
    But to put it in context, if the number of tests that the 
GAO did for this were measured in miles, there were 38 tests, 
that would be roughly from here to Baltimore. The Office of 
Inspector General has done roughly 300 tests, this is in a 3-
month period of this year. That is approximately from here to 
Philadelphia. And in a 3-month period at TSA, we do 225,000 
tests. These are physical tests with actual bomb components 
going through, with real people smuggling through the 
checkpoint. That is the equivalent of going around the world 
eight times.
    So I think the trip to Baltimore, one can learn interesting 
things. But what we do every day and the 225,000 over 3 months 
or over a million a year gives us very focused information on 
what we know terrorists work on. We know their capability. We 
focus our efforts on what will actually take down a plane as 
opposed to what might severely damage. My pen can do severe 
damage.
    We look at what can take a plane down and work backward 
from there each one layer. So yes, there are vulnerabilities in 
technology. I will address what we are doing about those. So we 
have put aside a significant amount of money to buy new AT 
machines, new checkpoint carry-on machines. We have announced a 
purchase of 250 already in October. We expect to double that, 
using fiscal year 2008 funds, should the Congress appropriate 
that money and the bill be signed.
    But 2008, we expect to move that number up to 500. To give 
you an idea, there are about 2,500 lanes in the United States, 
500 and some checkpoints. So this is a very, very significant 
technology upgrade that we will be deploying in 2008 that will 
be the first significant technology upgrade since the 1970's on 
carry-on luggage. That is in progress. We identified it 
earlier, and now fortunately it is being deployed.
    On the strategy we identified in 2005, we are too check-
list oriented. If our TSOs are looking to find a certain number 
of prohibited items and pull them out of bags, they are not 
thinking ahead. I think as Mr. Davis mentioned, we have to go 
on offense. We can't sit back at the checkpoint looking through 
a prohibited items list and fishing out peoples' objects. We 
have to be aware that they change their technique. When we move 
one direction, they will find a way around it. We have to play 
offense, we have to be nimble. That is why we do so many of 
these other IED component tests at our checkpoints every day, 
every shift, every airport. It is the crux of what we do.
    Then we said, in addition to being more flexible, better 
technology, we need to change up what we do. We can't be a 
sitting duck at the checkpoint with the same process. We have 
added layers. We have added the behavior observation layer, 
which is for people to identify suspicious behavior, such as 
you would find with surveillance or pre-attack planning. They 
are not bringing prohibited items. They are not breaking any 
laws. They are doing their surveillance feeling they are 
protected because we can't get them because they are not 
carrying prohibited items. Not true any more. Step into a U.S. 
airport, we have 600 behavior detection officers out there and 
they will pick you off in the public area.
    Then on top of that, we have added the ticket document 
checker, with the support of the Congress, and I appreciate 
that, to take over the critical point at which somebody shows 
up and shows identification. Now we have Federal officers there 
checking identity who have much better briefing who can then 
tie in with the behavior piece. On top of that, we have added 
our VIPR teams, which bring our Federal air marshals who are 
not flying on aircraft, they are now able to move undercover 
and overtly to do unexpected patrols everywhere in the airport 
environment. We also work, I should say, with our transit 
partners to help there, too.
    On top of that, we have added a program in the back of 
airports, where we have the equivalent of 1,000 headcount now, 
that we have developed to spend their time in the backside of 
airports. We are not just sitting at the checkpoint. We are 
looking at what are employees doing in the back, what is 
happening at the fuel dump, we are looking at what is happening 
in the parking garage, we are looking at who is driving into 
the airport. All of those things are now added. Those are 
additional layers that have been added since 2005.
    So we addressed, we identified the vulnerabilities in 2005. 
I told you on the technology we are after that with AT and the 
millimeter wave, I should say, and backscatter, whole body 
imaging, that gets us out of this pat-down issue. The GAO 
mentioned enhanced pat-downs. We know what that means. The TSA 
officers can do very enhanced pat-downs. It has not been 
acceptable to the public. If that is something that we have to 
do, we will do that. The better answer is millimeter wave or 
backscatter, which allow people to have privacy protections to 
go through and eliminate that possibility. So technology would 
fix that.
    Now the most important, the people. Our TSOs, we have 
trained them, I mentioned that. We have career progression now 
where our employees can move up and enhance their skills. We 
have a pay for performance program. Our attrition is 
dramatically down. Our attendance is up. The people who flew on 
August 10th know that our TSOs stood up that day and changed 
the entire security process overnight. That is not an easy 
thing to do. It is nimble, it is fast, it shows a commitment by 
our security officers.
    So we know our vulnerabilities, and we are addressing them, 
and we need one more thing. That is the support of the public. 
Mr. Mica mentioned this, and I think it is absolutely critical. 
We need the passengers back in the game. We are on the same 
side and we need your help. Our officers come to work at 4 a.m. 
They came to TSA, they are coming to the airport to protect 
you. We need your help. This is not something to be gamed. We 
need you to separate out when you pack your bag, be very clear. 
Here are the components of what I am bringing on and let the 
officer quickly assess that is not a problem. The more we give 
clean bags to our TSOs, the less places there are to hide if 
you are a terrorist.
    So we ask for help on participating, we ask for help on the 
respect and appreciation of our officers who are doing a great 
job. I have to say, working with my international partners, 
that I believe the transportation security officers that we 
have are the best in the world. The layers of security that we 
have added are more than other countries. I have had many 
discussions with a lot of these countries. We work closely to 
align our security measures.
    The last point on 3-1-1, it not only works for us, but it 
was adopted by 170 countries around the world. The EU announced 
it and followed our lead. We are working together with our 
partners. So we need to partner with our public, we need to 
partner with our international colleagues and we need to be 
very direct in saying yes, there are vulnerabilities. We can't 
be squeamish and say, oh, my goodness, they brought some 
firecrackers through and put it in the trunk of a car. Well, 
you know what? That is something you have to face up to and 
say, we need to stop all things but we have to focus on what 
truly does us harm.
    So I appreciate the committee's time and look forward to 
answering your questions.
    [The prepared statement of Mr. Hawley follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Waxman. Thank you very much for the testimony, Mr. 
Hawley. We want you to be successful. The American people are 
willing to do whatever is necessary. You can see that every day 
at an airport where people wait patiently. When the change was 
made about liquids, people became attuned to it and wanted to 
cooperate. I appreciate your appeal to people to even cooperate 
further.
    But while that all sounds very good, we still have this 
report, which is extremely troubling. And it follows another 
report a year ago where we found that in 21 out of 21 incidents 
where GAO sent people to get on the planes, they were able to 
get through. Mr. Kutz and Mr. Cooney, you heard Mr. Hawley's 
testimony. He said he has additional layers now. It is not just 
bringing in something that is not appropriate. They are looking 
for the most serious, the most serious thing that could be 
brought in that might lead to taking down an airplane.
    Did you and your people that did this study, did they take 
something that was serious enough to take down an airplane?
    Mr. Kutz. Again, the only way to determine that is actually 
to have an airplane. But you saw the video, you saw some of the 
explosion. Certainly it would cause severe damage to an 
aircraft and potentially harm some of the passengers. Whether 
it would bring an aircraft down, we don't have an aircraft to 
actually prove that. But certainly people we have consulted 
with that there is a possibility, what is going to happen at 
that many feet in the air I don't really know. But I think it 
is serious enough and I think that they would agree that this 
is a serious threat. Mr. Hawley did mention that in his opening 
statement. So I think we are in agreement with that.
    Chairman Waxman. Serious threat. Now, the airports, were 
they just at one airport or how many different airports were 
used for the GAO investigation?
    Mr. Kutz. Well, as you mentioned, last year we did 21, and 
this year we did 19. In each of the airports, two of our 
investigators went through and as we always have, we have cover 
teams. So there are follow investigators in case our 
investigators run into any trouble. So we did, I guess, double 
the number of airports, 80 tests over 2 years.
    Chairman Waxman. Well, you did this first test last year in 
2006. And it was requested by Congressman Mica. And in that 
investigation, GAO conducted undercover tests in 21 airports. 
After you delivered your report, it was leaked to the media and 
the results were broadcast on national television. I want to 
play a clip from NBC Nightly News, this was on March 16, 2006.
    [Video shown.]
    Chairman Waxman. Well, when that report came out, Mr. 
Hawley, you testified, and your response to last year's 
investigation was that TSA was implementing new training 
members that had not yet ``burned in'' to your transportation 
security officers. You promised that things were going to get 
better. Do our airports continue to have security 
vulnerabilities? I am pretty disturbed by the GAO report. 
Should the American people feel that you are going to be able 
to control this and protect the American public?
    Mr. Hawley. Yes. Yes. The American public can be confident 
traveling with the security system in place. You mentioned my 
testimony previously saying we were moving in that direction. 
We have accomplished that. Those were distributing the extra 
bombmaking kits, basically, the training devices to every 
airport, all the checkpoints. That is in place, that is 
operating today, and it is part of the training improvement 
effort. It works both ways, because you get the guy who is 
doing the test to figure out, how could I beat my own system, 
then they get somebody, another Federal agent unknown to bring 
it through, and then the TSO identifies it, in which case they 
congratulate them, or they don't, in which case they train 
them.
    Chairman Waxman. Let me ask, since my time is up, Mr. Kutz 
and Mr. Cooney, should, based on your investigation, the public 
think that our airports are secure?
    Mr. Kutz. I think Mr. Hawley is correct, there is a broader 
picture to this, including the intelligence. The best 
prevention here is to keep the terrorists from getting to the 
airport in the first place. I firmly believe, I don't know if 
he necessarily agrees with that, but I think that is the 
solution to this. Once you are at the airport, there are a lot 
of other layers here.
    But I would point out with respect to the 2006 and 2007 
tests that the components that we brought through, and I am not 
allowed to say how often we got through, but the components we 
brought through both times were the same. Plus in 2007, as I 
mentioned in my opening statement, we had the liquid explosive 
in addition to those. So again, I don't know what processes 
were put in place between 2006 and 2007. But I don't think they 
were necessarily effective totally in looking at what we are 
talking about.
    Chairman Waxman. Still, a discouraging result.
    Mr. Mica. Mr. Chairman.
    Chairman Waxman. Yes.
    Mr. Mica. I would like to ask a unanimous consent request 
that a letter that I sent to then-Attorney General Alberto 
Gonzalez, March 28, 2006, in regard to the leaks, which took 
place, which you just showed there, and I have a partial 
response in September from the Department of Justice.
    Chairman Waxman. Without objection, the document you wish 
to put into the record will be made part of the record.
    [The information referred to follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mica. Mr. Chairman, I am not trying to put in something 
to cover the administration. They never properly responded or 
investigated the leaks, which revealed national security 
information. Thank you.
    Chairman Waxman. Thank you. Mr. Davis.
    Mr. Davis of Virginia. Thank you.
    Mr. Kutz and Mr. Cooney, let me just ask, a lot of the 
material we are talking about that came through, this was gels 
and liquids, is that correct?
    Mr. Kutz. Some.
    Mr. Cooney. Some, yes, sir. Some. No gels.
    Mr. Davis of Virginia. OK. And right now, if you go through 
metal detectors, there is no way really to detect liquids, is 
that fair to say?
    Mr. Cooney. I can't go into the methods we used, but they 
were----
    Mr. Davis of Virginia. I am not saying everything. I am 
just saying, if I were to walk through a metal detector today 
that you have at the airport, that doesn't necessarily get 
liquids, is that correct?
    Mr. Cooney. No, it does not pick up liquids.
    Mr. Davis of Virginia. So if I have a vial in my pocket 
with 4 ounces or 5 ounces of liquid it wouldn't be detected 
going through the detector, is that fair to say?
    Mr. Cooney. It is fair to say depending on what material 
the vials are made up of.
    Mr. Davis of Virginia. But in some cases, some of the 
things that could be used to assemble a bomb or an IED would 
not be detectable?
    Mr. Cooney. Yes, sir.
    Mr. Kutz. Mr. Davis, as I mentioned in my opening 
statement, some of the things we brought through the 
checkpoints were carried on our persons.
    Mr. Davis of Virginia. Right.
    Mr. Kutz. So I think that addresses your point.
    Mr. Davis of Virginia. So Mr. Hawley, that is a hole right 
now, correct?
    Mr. Hawley. Absolutely. An object on a person is something 
that needs mitigation.
    But the question is overall, if there is a vulnerability 
one place, such as a magnetometer, what are you doing elsewhere 
to make up for it.
    Mr. Davis of Virginia. I understand. And some people you do 
pull aside and pat down.
    Mr. Hawley. Yes.
    Mr. Davis of Virginia. I understand you have intelligence 
and you have everything combined. But it didn't work with the 
GAO, I guess that is my question.
    Mr. Hawley. Well, there are two ways to improve what we do 
in the walk-through. One is the millimeter wave answer, or the 
backscatter, which is a technology answer. It has some privacy 
issues. Highly effective but very good. The other is the 
enhanced pat-down, as the GAO has suggested, which has had some 
very significant concerns in the American public. Our officers 
are capable of doing it, but those would be the two directions 
to go for closing any vulnerability that specifically you 
mentioned. Obviously there are other ones in front and behind.
    Mr. Davis of Virginia. I just want to focus on that, 
because I think that is understandable to, at least I 
understand it. Do we have any technology that can discern 
banned liquids and gels from those that are OK?
    Mr. Hawley. Yes.
    Mr. Davis of Virginia. And are we working on equipment and 
machinery that may be able to detect that?
    Mr. Hawley. Yes. We have purchased 200 already and we are 
purchasing an additional 400 in fiscal year 2008 should the 
appropriations bill go through.
    Mr. Davis of Virginia. Mr. Kutz, if that were to be in 
operation, that would really cut down on the vulnerability, 
would it not?
    Mr. Kutz. I don't know enough about those machines to tell 
you for sure. I would defer to Mr. Hawley, because he knows 
what we brought through, so he would be able to answer that 
question.
    Mr. Davis of Virginia. OK. Do you feel that would 
significantly cut down on some of the----
    Mr. Hawley. Very, very significantly add to the risk 
management.
    Mr. Davis of Virginia. If the technology does not exist 
today, are we taking a chance by allowing liquids and gels even 
in limited amounts aboard a plane at this point, as we look at 
it today?
    Mr. Hawley. It is a risk management process. And we did 
originally ban everything. That was before we understood in 
detail all aspects of what the terrorists were planning. We 
have shared that with our international partners and have come 
to the agreement of all of us, based on intelligence and 
science and security issues, that the 3-1-1 is effective. 
Because if you ban all liquids, then you are putting a lot more 
pressure on the checked baggage system. That can create its own 
problems in terms of just even the volume of checked bags.
    Mr. Davis of Virginia. Getting at Diet Coke or something, 
if it is labeled and you buy it inside, it shouldn't be a 
problem. Since the limitations on gels and liquids came out of 
the U.K. threat last year, what does the U.K. do to address the 
threat in terms of screening passengers for liquids and gels?
    Mr. Hawley. One of the things is allow one carry-on bag, 
not one plus one as we do in the United States. So that was one 
thing.
    I should say we are in constant communication with the U.K. 
on all of these matters. We are of common mind and common 
strategy. In fact, we are both buying these advanced x-ray 
machines for checkpoint, both working on the millimeter wave 
and both developed the 3-1-1.
    Mr. Davis of Virginia. In Israel, how do they handle this 
threat?
    Mr. Hawley. They have a different security process, in that 
they have one major international airport. So they have a very 
aggressive, I think as you know, the questioning on the up-
front, and if they are doing a pat-down, it is significantly 
different from what you get in the United States.
    Mr. Davis of Virginia. Let me just ask finally, if 
mandatory pat-downs were in place, let me ask Mr. Kutz, if 
mandatory pat-downs were in place, would you have likely been 
caught, at least during the banned substances that were hidden 
on the bodies?
    Mr. Kutz. I think it depends on the person doing the pat-
down, it depends on the aggressiveness and what parts of the 
body are patted down.
    Mr. Cooney. With the pat-downs that they have in place 
right now, that TSA implements, I believe we would not have 
been caught. That has to be changed.
    Mr. Davis of Virginia. I appreciate it. Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Cummings.
    Mr. Cummings. This testimony is very troubling. I am 
wondering whether we have some low expectations here. Mr. Kutz, 
you are, I guess for you all to conduct these tests, you know 
what procedures are in place?
    Mr. Kutz. We use only publicly available information. So to 
the extent that it is something we have either observed going 
through an airport or see on the Internet, we try not to do our 
tests with any insider information.
    Mr. Cummings. OK, so you are just like Joe Citizen?
    Mr. Kutz. Yes, sir.
    Mr. Cummings. That might be even worse. What I am saying 
is, you were able to--what were your expectations? I guess that 
is what I am wondering. Because I hear Mr. Hawley talk about, 
and I still don't fully understand it, the combination lock and 
the 19 layers. But the bottom line is, this stuff still got on 
the plane. Duh. It got on the plane.
    Mr. Hawley. It actually did not get on the plane.
    Mr. Cummings. It didn't?
    Mr. Hawley. In theory, it might have. But in theory, I can 
dunk a basketball.
    Mr. Kutz. No, it got on the plane. I would disagree with 
that. It got on the plane----
    Mr. Hawley. Not what you saw on the video.
    Mr. Cummings. Excuse me, excuse me, gentlemen. I will come 
back to you, Mr. Hawley, because I want to be fair. Did the 
items get on the plane that you, when you conducted some tests 
and you showed the results of the devices, the kinds of things 
that you were able to get on the plane, did those things get on 
the plane?
    Mr. Kutz. Yes.
    Mr. Cummings. OK. And Mr. Hawley, as I listen to your 
testimony, you talk about all of these layers. Can you explain 
that combination lock thing again to me, because I missed that 
one.
    Mr. Hawley. You bet. What does it take to do a catastrophic 
terrorist act? You have to plan it, you have to procure the 
materials necessary to do it, you might communicate with other 
conspirators. All of those represent opportunities to stop the 
attack if you are tightly lined up with intelligence and law 
enforcement.
    Then you might have to travel to go to a training camp or 
to come to the United States or travel in the United States. 
That is an opportunity. Then there is the surveillance. They 
are going to have to see what it is they want to do. That is an 
opportunity.
    Mr. Cummings. I got you. Now, let's fast forward to the 
checkpoints.
    Mr. Hawley. You bet.
    Mr. Cummings. How important are the checkpoints?
    Mr. Hawley. Very important.
    Mr. Cummings. And would you say that they are the most 
important?
    Mr. Hawley. No.
    Mr. Cummings. OK. So if the security checkpoints, they are 
critical, though, is that right?
    Mr. Hawley. No, I think that is one of the problems, is 
that Americans focus that the whole thing is the checkpoint. 
And the security system is a layered security system. Because 
if they say the checkpoint is all buttoned down, then the 
attack comes through the perimeter, the attack comes in front 
of the airport. There is a ManPad attack.
    There are thousands of ways to attack. If you put all your 
resources at the checkpoint to make that bulletproof, they say 
thank you very much and go someplace else to get in. So you 
have to secure the entire environment at a basic level and then 
you have to upgrade in an unexpected, unpredictable way.
    Mr. Cummings. Let me ask you this. All these people are 
standing in these long lines, everybody in this room. They are 
standing in long lines, thinking that the checkpoints are 
critical. Are you telling me that they are not?
    Mr. Hawley. I am telling you they are a piece of the 
puzzle. And the lines are not extraordinarily long. I would 
expect next week we are going to be tested by the largest load 
of passengers. I am looking forward to the challenge and our 
officers are looking forward to the challenge.
    Mr. Cummings. Now, the other layers of security you refer 
to deal mostly with intelligence gathering. And certain 
individuals making sure that certain individuals don't get to 
security checkpoints in the first place. Are you talking about 
racial profiling?
    Mr. Hawley. No, no, no, no. No, because terrorists use 
people who specifically don't ``look like'' terrorists. If you 
rely on what you think a terrorist looks like, you are going to 
miss them.
    Mr. Cummings. Well, I can tell you, Mr. Hawley, it seems 
like at the rate we are going, and I really didn't expect the 
testimony that you provided us, because it sounds like we are 
almost, you are saying that, I think, that you know we can, you 
think we can do better, but we are just going to have to tread 
water until we get there.
    Mr. Hawley. No, no, no. We have to do better every day. 
That is why we do all these tests. That is why every test every 
day, to improve. But we have to stay ahead of the threat, 
because if we just focus on what we saw in the video, yes, we 
can guarantee that won't happen.
    Mr. Cummings. But doesn't that upset you, that 19 of 19 or 
whatever it was could get through and get on the plane?
    Mr. Hawley. No. I think that it is instructive and helpful 
and is a data point. But as I said, we do 2,500 a day every 
day. And we target it to our vulnerabilities. We know what they 
are. Those tests allow us then to close the gap. Frankly, some 
of the stuff we saw here is not a concern, honestly. There is 
some of it that is a concern.
    So we focus on the piece that could do serious, 
catastrophic damage, take an airplane down. That is what we go 
after. We know that if somebody goes up and puts on a flash in 
the plane, that is not a good thing, they will be arrested and 
other passengers will certainly take it out on them. But we are 
not going to put our resources against things that are 
scientific demonstrations. We are looking for the terrorists.
    The terrorists are very smart. They know what takes a plane 
down. That is the enemy we have to stop. We like the coaching 
and the information we get from the GAO. Very helpful, good 
partner. But it doesn't get to the point of what the terrorists 
are doing.
    Chairman Waxman. The gentleman's time has expired. Thank 
you, Mr. Cummings.
    Mr. Mica.
    Mr. Mica. Thank you. At the end of 2005, I asked GAO to 
conduct studies and tests of performance at TSA. There are 
three types of testing that have gone on. One is the Inspector 
General of Homeland Security, TSA test itself and then 
independent GAO. I asked GAO because I was made aware, and 
again, we are in a deadly, a very deadly game. But you don't 
have to be a rocket scientist to figure out that terrorists or 
folks who want to take us out are looking for the next level of 
vulnerability. We are always putting something in place that 
deals with the last incident.
    What disturbed me about this 2006 leak, and I don't know 
who leaked this, but after you concluded your tests and before 
I even got a copy of the test, information was leaked. Mr. 
Waxman showed it here. Do you know anyone who leaked this, Mr. 
Cooney or Mr. Kutz?
    Mr. Kutz. No. No one is aware, and FBI did not do an 
investigation based upon yours and the Comptroller General's 
request.
    Mr. Mica. OK. What disturbed me in that is because this 
information was given to me, was to be given to me and I did 
learn of the failure. This failure is not new that you just 
released in your report, is that correct? This failure is not 
new. It mirrors what took place in your last test a year ago, 
is that right?
    Mr. Kutz. It mirrors it plus the liquid explosive we 
mentioned.
    Mr. Mica. OK. And one of the reasons I asked you to conduct 
a test is because TSA had not conducted those kinds of tests, 
is that correct, Mr. Hawley?
    Mr. Hawley. We started doing liquid tests in 2006, before 
the liquid plot in the U.K.
    Mr. Mica. When we met in April of this year, I asked you if 
you had done similar tests to what GAO had done. And you had 
said, yes. Then you came back and you told me you had to 
correct, with the meeting when we had the hand-off to Mr. 
Costello and the others, then you came back and you told me no. 
You corrected yourself. Which is the case?
    Mr. Hawley. Well, the GAO has done a number of different 
types of testing. So it gets into the technical----
    Mr. Mica. Well, again, the specific type of test that we 
saw displayed here. You had done that or you had not done that?
    Mr. Hawley. If we are talking about chemicals, yes. If we 
are talking about the exact same chemicals, no.
    Mr. Mica. You had not?
    Mr. Hawley. No.
    Mr. Mica. Sort of non-traditional explosives, which I 
consider our biggest threat at this time. You were at that 
meeting. The other thing that was at the meeting is that they 
sort of pooh-poohed, TSA sort of pooh-poohed the results of 
that explosion with that material. Is that correct?
    Mr. Cooney. Yes, sir.
    Mr. Mica. OK. Have you had that material tested to see if 
it would do catastrophic damage?
    Mr. Cooney. Yes, sir.
    Mr. Mica. And what were the results?
    Mr. Cooney. We have had two independent opinions on that, 
and the results are that placed in the appropriate place on an 
aircraft, and I can't say where that is at this hearing, that 
it could possibly do catastrophic damage.
    Mr. Mica. OK. See, I am not out to, Mr. Hawley, I just was 
disturbed by again not giving the other side as they took over 
all the information. I wish I could talk more about that.
    OK, we failed. Now, of course, when I learned this, I would 
have been negligent, too, if we didn't do something or Mr. 
Hawley didn't do something. And he learned about this back a 
year ago. We know what can make up for problems at the 
checkpoint. One, we started putting behavior analysis people in 
place. We still don't have that done, do we, Mr. Hawley?
    Mr. Hawley. Yes, we do, 2,000.
    Mr. Mica. At every checkpoint?
    Mr. Hawley. The President signed a budget amendment last 
week, so we will be able to----
    Mr. Mica. But it is not done yet? I am not giving you a 
hard time. I just want to say that we learned that.
    Mr. Hawley. 600 in place.
    Mr. Mica. When you did your tests most recently at the 21 
airports, Mr. Hawley, do you know how many of those had our new 
protocol?
    Mr. Hawley. I do not. In terms of the BDOs? Are you talking 
about the BDOs or the 3-1-1?
    Mr. Mica. The behavior analysis trained personnel that we 
started putting in place after we learned that the technology 
in place would not handle this.
    Mr. Hawley. We do not know.
    Mr. Mica. I want to know. I want to know how many of those 
people, that should have been the first thing we did is find 
out if what we put in place failed. That is just--I can't 
accept that. That is beyond belief that we would not know what 
we put in place.
    Now, the technology is there also to deal with some of 
these non-traditional explosives, is that correct?
    Mr. Hawley. That is correct.
    Mr. Mica. OK. Could I have an additional minute by 
unanimous consent?
    Chairman Waxman. Well, if you want to make one last 
question, do it. You said nice things about me, so I am going 
to give you 1 more minute. [Laughter.]
    Mr. Mica. One of the last things, my last question, you 
test, Mr. Hawley, your personnel on performance. USA reported 
in October statistics that have been publicly made available, 
maybe they were classified but they are here. What concerns me 
even more, and I have the past performance levels, this seems 
to indicate that there is not improvement, in fact, it looks 
like we have lost ground in passenger screening.
    Mr. Hawley. No. And let's be clear. If you want good 
scores, I will deliver you good scores. What we are saying is--
--
    Mr. Mica. No, I know we----
    Mr. Hawley [continuing]. We are going to take on the 
toughest assignment, which is they are bringing improvised 
explosive devices in component parts, and we are going to train 
and test against that. That is really, really hard. I would 
suggest there might be any number of facilities within 10 miles 
of here that would have a very difficult time to detect all 
these things. We are focused on the toughest, toughest part of 
it, we train and test on it. That article was something about 
training. There was not data in there about test results.
    Chairman Waxman. Thank you, Mr. Mica.
    I am confused about one point, just to clarify for the 
record. Mr. Cummings asked whether the materials got on the 
plane, and as I understand it, Mr. Kutz you said yes and then 
Mr. Hawley, you said no. What would be the basis for your 
saying that on GAO tests, it didn't get onto the plane?
    Mr. Hawley. My understanding is that what was in the video 
was not what was brought through the checkpoint. The reason 
that is significant is that you would have had to assemble the 
bomb past the checkpoint. And there are measures in place 
between the checkpoint and the aircraft that would make it more 
difficult for somebody to therefore get there. So as I said, 
you can get through a piece of it, you can get a piece through 
the checkpoint, perhaps. But there are other barriers on the 
way. And I just wanted to make clear it was not a completed IED 
that went through and got on the aircraft.
    Chairman Waxman. Well, we are talking about GAO's--what was 
the situation?
    Mr. Cooney. Mr. Chairman, we did not, after we got through 
the checkpoint, we did not construct the device. We brought all 
the components onto the aircraft. That is to say that we could 
have constructed it on the aircraft. We could have simply gone 
into the lavatory on the aircraft once the plane was airborne 
and constructed the device there. So we did bring all the 
components onto the aircraft.
    Chairman Waxman. It did get onto the plane.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I just have a couple 
of observations. Mr. Hawley, you had indicated at the beginning 
that TSA officers have the best interests of the flying public 
in mind and that the flying public should be more, presumably 
tolerant of the work that TSA does to protect them. The thing 
that kind of concerns me about this panel is that there seems 
to be an adversarial relationship TSA and the Government 
Accountability Office, where in fact my sense is you have the 
same primary objective, and that is to protect the public, and 
the flying public in this particular circumstance.
    I understand that there are layers of security and that 
risk management is not a perfect science, that you have to not 
only take into consideration possibility, but also probability. 
So when I look over the testimony and this seemingly 
adversarial history that exists between TSA and GAO, that 
fundamentally raises some questions and concerns, because my 
sense is that GAO is not conducting this to embarrass anybody, 
but knowing that a security system in its many layers is an 
evolving process that takes into consideration information that 
may not have been presumed when originally security systems 
were put in place, that it has to be flexible, it has to be 
elastic, it has to be evolving.
    Your thoughts?
    Mr. Hawley. I would just like to say, although we 
definitely are sparring a little bit today, we have a 
surprisingly good relationship in that, the reason I have said 
certain things was to have the record be clear. Because I think 
it is a key point, the difference between catastrophic failure 
and something unsafe on the aircraft. I think we are absolutely 
in lockstep in terms where we end up. I think we agree strongly 
with GAO's suggestions as to what goes forward. The value they 
bring is in some other areas other than the ones that I am 
disputing.
    So I take it as an indication of our respect and sort of 
professional relationship. But it actually is a very good 
relationship.
    Mr. Higgins. On behalf of the flying public, we want to 
encourage you to work together and to continually improve the 
security system.
    Mr. Kutz. Yes, we do often spar over the facts. But I think 
the important part is, as you said, the suggestions we have, if 
they consider those seriously and where appropriate, implement 
them, that is the most important part at the end of the day and 
hopefully that is what they will walk away with from this.
    Mr. Higgins. Great. Just a final question, Mr. Chairman. 
Mr. Kutz, you had said that one of the recommendations to TSA 
was increased pat-downs. I am just curious, is it a more 
comprehensive pat-down per incident, or is it more incidents of 
pat-downs that you are recommending?
    Mr. Kutz. No, it is actually the pat-down being, if I could 
say a little bit more thorough.
    Mr. Higgins. Thorough, OK.
    Mr. Kutz. Yes.
    Mr. Higgins. Thank you very much. That is all, Mr. 
Chairman.
    Chairman Waxman. Thank you, Mr. Higgins.
    We are being called to the House floor for a series of 
three votes, which ought to bring us back here in a half hour. 
So we are going to recess then reconvene to complete the 
hearing. So we stand in recess.
    [Recess.]
    Chairman Waxman. I want to call the hearing back to order. 
We will start with Mr. Yarmuth.
    Mr. Yarmuth. Let me start by saying I am a little bit 
uncomfortable with conversations like these, as I am sure you 
are, recognizing on the one hand our obligation to provide 
oversight on airport security and also the security of striking 
that very delicate balance between trying to make the public 
confident that we are doing what we need to be doing, and also 
not scaring them to the point where they are afraid to fly.
    I remember back in my journalist days, back right after the 
9/11 crashes, and I was doing an interview with the director of 
the airport in Louisville, and asked him, going through a 
number of the measures they were taking, whether these measures 
in fact were designed to provide real security or the illusion, 
the perception of security. He was quite candid and said, this 
is basically to create the perception of security, because 
there is a limit to what we can do to provide real security. I 
probably won't get any serious disagreement out of you on that.
    But with that premise, whether you accept it or not, I 
would like to ask a couple of questions, because we all go 
through security on a weekly basis. And by the way, I will say 
the TSA people in my airport in Louisville are terrific, they 
work hard, they are very considerate. I have no complaints 
about them. But it seems like a lot of the measures that are 
taken don't focus on what you talked about, focusing on the 
priorities of not bringing a plane down, but to again create 
some kind of an illusion which, when you get behind them, don't 
make any sense. This is going to sound a little trivial, but it 
is parochial and important to me.
    We make Louisville Sluggers at Hillerich and Bradsby in 
Louisville. You can go on a tour of the museum there. They sell 
souvenir baseball bats. Souvenir baseball bats are about 15 
inches long and probably not much bigger around than this 
pencil, and you can't take them on a plane.
    Now, I will guarantee you, and there is a big display when 
you go through the TSA line that you can't bring these little 
bats on the plane. Now, I guarantee you, I am carrying, every 
time I am on the plane, things that I could do more damage with 
than those baseball bats. It seems to me that is one of those 
instances in which we focus on things that don't make any 
sense, don't provide any security and may in fact, if we are 
relying on people who are stressed and have to cover a lot of 
people and so forth, we are making them deal with things that 
don't make any difference in the final analysis. Would you care 
to comment on that, Mr. Hawley?
    Mr. Hawley. I think you have raised a number of good 
points. Specifically on that one, we are looking right now at 
the prohibited items list, and we are doing it in conjunction 
with our partners in Canada and the European Union and other 
places, so that we can have a common framework. As you know, we 
made the decision on scissors and small tools, and recently the 
lighters, based on risk management.
    So we specifically are looking at the baseball bats as well 
as the rest of the prohibited items list, because we have to 
stay flexible. Again, I want to get away from the checklist 
mentality, where we are just looking to take things away. We 
need to look for the person who is bringing a novel threat.
    Mr. Yarmuth. And I guess the other question I would have 
is, you may have alluded to this earlier, but it seems to me 
that in most cases, the greatest protection you would have in 
terms of things that go on in the passenger cabin are the other 
passengers. And not necessarily things that you would do going 
in. Richard Reid was ultimately stopped because it was a 
passenger who pointed out that it was unusual that somebody 
would try to light his foot on the plane.
    Mr. Hawley. I would like to address the charade issue, 
because I hear it a lot, I see it on the blogs. We directly 
address that in the IED component piece. We can get high scores 
on testing, etc. But our officers know in reality what is real 
and what is charade. In order to get them prepared and 
motivated and switched on to look for the difficult threat, 
they have to believe that what we are really doing is security.
    So we have really worked hard in the last couple of years 
to openly communicate with our work force about the threats. 
What we do we do because we believe it is a security matter. 
And we do need the support of the Congress and the public when 
we do change a security measure, because you can always come up 
with a scenario that says I can use X to do Y. And all of it is 
risk management. It is very difficult. Any one issue you can 
fight over. But you have to fit the whole thing together. I 
think it is a pretty complex equation. It is important that we 
address these vulnerabilities publicly, so the public knows 
that is involved.
    Mr. Yarmuth. Along those lines, I am not sure I have ever 
heard an announcement from a flight attendant inside a cabin 
about, and I know you don't want to make people so 
hypersensitive that they will report things that are just 
normal behavior, but when you get paranoid people, but that you 
need to be alert to what people are doing in the cabin and if 
you see any suspicious activity to report it. Has there ever 
been any thought to utilizing the crew to actually enlist the 
passengers in those precautions?
    Mr. Hawley. Well, certainly the crews are enlisted. We 
don't make any announcements. Actually you would be surprised, 
we probably get two or three a day of disruptive passengers 
subdued by other passengers. So I think we all travel at a 
heightened state of alert. I am very confident, given the track 
record we have, that people doing suspicious activities are in 
fact reported.
    Mr. Yarmuth. Good. My time is up. Thank you, Mr. Chairman.
    Chairman Waxman. Mr. Westmoreland, I think you are next.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Mr. Hawley, I just want to go back to a couple of things. 
One was the point about whether this material that we saw on 
the video actually got on the plane or didn't get on the plane. 
I think it was Mr. Cooney that said it did get on the plane. 
And you said that it may have, but not in a form that could 
have caused the damage.
    You mentioned that there were some other points, I guess, 
between the screening location and where it would have actually 
got on the plane. So are we to be under the assumption that 
these people would prepare this thing prior to boarding the 
plane or once they boarded the plane?
    Mr. Hawley. Of course, they could attempt either. From the 
checkpoint to the boarding gate, there is a significant amount 
of security that is not seen. As you know, we have a 
significant number of Federal air marshals flying every day. 
They are undercover, they are in airport boarding gates. Part 
of their job is when they are not actually on the aircraft to 
be patrolling in those areas, on the lookout for this. We know 
exactly what can bring a plane down, we know the 
characteristics of that chemistry and what you have to do to 
mix it properly. So there are some tell-tales that you can pick 
up on that would make it very, very difficult for someone to 
get away with it.
    I think the point Mr. Cooney raised, on the aircraft, in 
the restroom, is something that we pay attention to, and 
certainly flying air marshals and flying flight crews pay 
attention to it. But we look at, we really look across the 
board.
    Mr. Westmoreland. OK. Let me ask you this. I think that you 
mentioned that there has been too much attention, or TSA agents 
are having to pay too much attention to carry-on baggage. Just 
from experience, in doing quite a bit of flying, there are some 
people that carry on everything but the kitchen sink. 
Supposedly, it is a one bag carry-on, one carry-on and one 
personal item. Would it help if we start enforcing that to 
where you could spend more time on the person, on the physical 
person, rather than having to go through all these bag checks? 
Some people get in line, they have five of the gray trays and 
then some other stuff going through. When can we have some 
enforcement of that, where you are kind of given a little more 
flexibility in looking at that individual?
    Mr. Hawley. It is a shared responsibility with the 
airlines. We looked at this during the liquid plot with the 
U.K. They went to one bag, we did not. Our concern and my 
concern was, you get a duffel bag and toss your two or however 
many it is in there and zip it up and say, voila, here is my 
one bag. Then that gets, that is too congested for us really to 
give an easy look. So you have to do a bag check and then that 
is a nightmare.
    So it really is, that is why I say partnering with the 
public, that we have to fight through 10 million images a day, 
and the extent to which the public can make them less 
cluttered, it gives terrorists less room to hide and it speeds 
the process.
    Mr. Westmoreland. So you don't think that would be an 
alternative in trying to get the airlines to more enforce what 
they are doing?
    Mr. Hawley. Yes, I would focus on the weight. I think the 
weight is a bigger problem than the number. Because we injure 
our folks sometimes when picking up a bag and it is way too 
heavy. But we have to operate in the world that exists and not 
unduly do commerce. Our challenge is it is our job to find the 
bomb part, no matter what is thrown at us. And that is what we 
hold our officers to.
    Mr. Westmoreland. And I know that you are probably going 
through all the training and trying to get everybody through 
the training. I know that Mr. Mica had mentioned the behavioral 
interviewing or whatever. I am sure that is a much more 
difficult process or more training that you have to send 
somebody through, and they probably have to have a certain 
tendency to be able to do that.
    But it does concern me that these tests were run in several 
airports, and you, or the TSA doesn't seem to know if this 
behavioral part was there, and if it did any good or whatever. 
I don't know how much information you have shared back and 
forth about the test and the airports and who it was. But I 
would like for you to comment on that if you would.
    Mr. Hawley. Yes, it is a key point. Part of the protocol, 
and I respect the protocol, is they don't give us advance 
notice. So we don't know when they are coming, and whether they 
know it, the BDOs or not. We in fact are working on tests of 
what we call the behavior detection officers. It is, we are 
finding it is difficult to simulate the actual stress of 
somebody with hostile intent. So we are working with other 
countries who have capability there, as well as with our 
research arm at the Department, to get the scientific data that 
will say how good our officers are, just on the behavior.
    Mr. Westmoreland. Mr. Hawley, I want to thank you for the 
job that you are trying to do with TSA. I know it is a big, big 
undertaking. I appreciate your coming here today. I know it was 
probably similar to having a root canal. But I do want to thank 
you for that.
    Chairman Waxman. Thank you, Mr. Westmoreland.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman, again for holding this 
hearing.
    Mr. Hawley, I wouldn't want your job. I want to say that up 
front. I think it is one of the most difficult jobs. I think it 
is a no-win job. But I was uncomfortable with the morning part 
of this hearing, because I felt like we were making, giving us 
the sense that we have 19 points, so they got through 1, and 
that is not good, but don't lose sleep over it. And I am losing 
sleep over it, and I don't have your job.
    Mr. Kutz, my understanding is you attempted 21 times to 
bring in explosive devices. Is that correct?
    Mr. Kutz. It was 21 times in 2006 and 19 in 2007.
    Mr. Shays. Now, of the 21 times, how many got through?
    Mr. Kutz. I can't discuss that specifically. That is 
considered sensitive security information.
    Mr. Shays. Did a majority get in?
    Mr. Kutz. I am not supposed to--I can say we got through.
    Chairman Waxman. If Mr. Shays would yield to me, Mr. Davis 
and I have had a briefing with the intel people and we didn't 
think it was productive to get into any kind of numbers.
    Mr. Hawley. I could offer that the numbers are not 
necessary to get the learning from it. And I think we derive a 
significant amount of learning. So we would stipulate that 
there are learnings to be had regardless of the numbers.
    Mr. Shays. OK. I am going to go under the assumption, then, 
because I don't know, that a majority got through. And given 
that, I would like to ask this question. Mr. Kutz, if you had 
attempted 19 times, 21 times and 19 times to get through and 
none of them got through, would you have still written the 
report and would we have been able to say to Mr. Hawley, this 
is pretty fantastic. Or if you had had a total failure, would 
there have been no report?
    Mr. Kutz. We always write the results of our work. That is 
part of our protocols. We always go through the same briefings. 
We gave them all the details of where we went, what we did, 
several detailed briefings. We always report externally the 
results.
    Mr. Shays. Mr. Hawley, I was troubled by your comment that 
none of the weapons grade material, or the bombs got in because 
they weren't assembled. It seems to me like that is a lawyer 
talking instead of the fact that GAO was able to get this 
weapon grade material through, they were able to get the 
detonation through. And is that not correct, they were able to 
get it through and get it on the plane, is that not correct, 
Mr. Hawley?
    Mr. Hawley. You have to ask them as to what they actually 
did.
    Mr. Shays. What got on the plane? Did you stop----
    Mr. Kutz. The devices we described, the detonator, the 
liquid explosive and the incendiary device components.
    Mr. Shays. And everything you showed us on the film was 
what you got on? There is not two different examples? You 
didn't have a bigger explosive on the TV screen. What you got 
through was what you detonated or similar?
    Mr. Kutz. Similar, correct.
    Mr. Shays. OK. What would have been involved with 
assembling the weapon, the bomb?
    Mr. Cooney. We practiced assembling the weapon. It took 
approximately 12 to 15 minutes to put it together once.
    Mr. Shays. So that is a pretty long time. If you were to 
take that, if someone was sitting next to you, that would be a 
pretty difficult thing to assemble in front of someone, 
correct?
    Mr. Cooney. If we were on a plane, we wouldn't assemble it 
in our seats. We would assemble it in another area of the 
plane.
    Mr. Shays. OK. Let's just say you went to the restroom. 
Would you have had to carry a case into the restroom?
    Mr. Cooney. I can't go into that, Congressman, based on the 
confidentiality and the classification of the report. I will be 
happy to discuss that with you in a closed session.
    Mr. Shays. I guess what I want to know is, would it have 
been noticeable to a flight attendant or someone else that 
someone was having to carry on something that was noticeable, 
or would it have been able to have been disguised?
    Mr. Cooney. It would have been disguised.
    Mr. Shays. So Mr. Hawley, why should I take any solace in 
the fact that you say, well, they weren't taken on the plane 
because they weren't assembled? Why is that meaningful?
    Mr. Hawley. Thank you for asking the question. This is not 
an exact analogy, but it is like bringing the watch parts 
through and then saying, I am going to assemble it----
    Mr. Shays. Bringing the what part through?
    Mr. Hawley. A watch, you know, I have my watch and I bring 
watch parts through. It is very sophisticated chemistry to get 
the right everything, as well as certain matters of assembly. 
There are some telltale indicators when one is doing that, and 
it is not trivial to assemble one of these things so that they 
work. You have to ask yourself that, given the Richard Reid 
issue, there is a certain bar of effectiveness that they would 
want to do before they would expose themselves to discovery. 
And that bar is reasonably high.
    Mr. Shays. OK. Well, I will just end by saying, it is 
unsettling to think that so much explosive device could get 
through. And I make an assumption that a good amount did get 
through. I would like to have thought that maybe 1 out of 19 or 
1 out of 21 would have been the number. So I wish you well and 
I hope that we are doing everything that we can to help you 
succeed, Mr. Hawley.
    Chairman Waxman. Thank you, Mr. Shays.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. And thank you for 
holding this bipartisan hearing. I think it is doing us a lot 
of good to at least make sure the American public understands 
the need for ongoing improvement.
    I think maybe, Administrator, the kindest way to start this 
off is with something that will be good for the public. I had 
this shown to you earlier, and it is entitled deluxe 16-piece 
carry-on kit. For the record, if someone goes and buys one of 
these kits where they can get little teeny amounts of what they 
need to travel that may not otherwise be available or may cost 
a lot of money to buy, are they allowed to use that?
    Mr. Hawley. Pretty much yes, assuming it has a zip top bag 
under there, which I believe it does.
    Mr. Issa. Right, but the individual bottles themselves?
    Mr. Hawley. Yes.
    Mr. Issa. And I would hope that after today's hearing, 
universally, TSA people who don't get it, who routinely I have 
seen, because I travel every single week, twice a week, I have 
seen them turn people away with, oh, there is no marking on 
that. They do not seem to understand that, while these are 
being sold, and while in many cases the only way, and I don't 
want to sound sexist, but for a woman to have a multitude of 
different, small items, make-up needs, and carry it on, they 
need to have that, particularly if you look at what is often in 
a purse. I see a lot of grinning by the men and women behind 
you. But I think it is important that when we say we care about 
commerce and we care about the traveler, that there be a 
uniform understanding that this doesn't have to be the answer, 
which is everything I took from the last hotel I stayed in. 
[Laughter.]
    It was 2 days worth, I didn't take any more than my share.
    But I think it is important, because my line of questioning 
will not be on security. And it won't be on security because 
one, I spent time in the military, in EOD, and I am going to 
predict that 20 years from now you are still going to be 
playing cat and mouse. We were playing cat and mouse with the 
STFs in the 1970's. I don't think it is going to change.
    Having said that, I am going to ask you a question, which 
is, given that we continue to fund you at the levels you 
request and that you continue to ask for bucks for Buck Rogers 
type innovation, do you believe that you will reasonably be 
able to stay ahead of these ever-moving and improving target 
characteristics?
    Mr. Hawley. I do, but it won't be through Buck Rogers 
technology. I think we have to have technology that is 
reliable, that is sophisticated, that is affordable. But 
getting on the cutting edge of technology I think is expensive, 
not reliable, and can usually be engineered around. So we will 
always have the human factor, and I take your point about 
generational conflict and that this is a long-term thing. When 
we do something, they are going to react to get around it.
    Therefore, for our technology purchases, you will see fewer 
purchases of those big trace portals and more purchases of 
portable liquid explosive detectors, portable explosive 
detectors that we are in fact using even with some of our 
foreign partners. So the flexible mix of technology and the 
business process where our officers and all of our folks, 
including Federal air marshals, can continue to adapt and not 
give the enemy a stationary target, I think that is the 
critical thing and I don't think, we are not going to have a 
silver bullet.
    Mr. Issa. Because you kind of led into this, you are going 
to be a labor-intensive industry for a while, for the 
foreseeable future, that technology per se is not going to 
eliminate the need for the men and women in uniform who handle 
the luggage, look through it, or who, out of uniform, plain 
clothes, who observe after you go through the primary 
checkpoint. Then can I ask for something very straightforward 
in this hearing? Because this is the Oversight and Government 
Reform Committee. I travel throughout Europe and the Middle 
East, but usually go through Europe commercially on my way to 
the Middle East.
    For some reason, the Europeans have figured out that to 
have a TSA-equivalent person shuttling little gray trays back 
and forth is a huge waste of a trained individual. I travel 
through Dulles, I travel through San Diego, Sacramento, a 
number of other airports. They all vary, but none of them 
reached level of moving the trays from where they get left off 
back to the other without human intervention, meaning that in 
every one of your airports, you have somebody like the 
uniformed person behind you who is doing a task that requires 
absolutely no training, absolutely no expertise, for which we 
are paying for training and expertise. I would hope that you 
would commit to us to make the dollars available to automate 
the trays or the equivalent, so that we not waste valuable 
Government employees on something that, quite frankly, anybody 
can do and no one should have to do in this automated day and 
age.
    Mr. Hawley. Yes, that is the perfect use of technology to 
make it more efficient. I totally agree.
    Mr. Issa. Thank you . I will end on that high note, Mr. 
Chairman. Thank you.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Kutz, last year, GAO conducted a similar undercover 
operation and managed to get liquid explosives past security 
checkpoints in all 21 airports you tested. In February 2006, 
when GAO completed its investigation, there wasn't a public 
hearing such as we are having today. Instead, GAO privately 
briefed TSA officials, including Mr. Hawley, on its results.
    Mr. Kutz, in your February 2006 briefing with Mr. Hawley, 
did you warn him about the vulnerabilities your test had 
exposed?
    Mr. Kutz. The February 2006 briefing, we did not have 
liquid explosives on the 2006 testing. It was the other two 
devices, the incendiary and the IED detonator we showed today. 
The liquid explosives were on the work we did for your 
committee as part of the 2007. So we did not do that. They were 
certainly aware, as Mr. Hawley said, that liquid explosives are 
a significant risk here. And that was one of the reasons, I 
think, that we attempted to do that as part of our second test 
for your committee.
    Chairman Waxman. But you did brief him on what you had 
found in your investigation?
    Mr. Kutz. In 2006, that is correct. Yes.
    Chairman Waxman. And following your briefing to TSA, did 
TSA change its policies or procedures to fix the gap in 
security that your tests highlighted?
    Mr. Kutz. I don't think any procedures were changed. What 
they represented to us, that people were alerted to what we did 
and there was additional training. That is what we understood 
happened after the last report.
    Chairman Waxman. Instead, Homeland Security Department 
officials made statements to the press criticizing the GAO 
investigation, stating that they were a bit far-fetched. Mr. 
Hawley, you were quoted in an NBC story as saying, TSA wasn't 
interested in materials that would set off an interesting 
firework display in an aircraft but can't bring the plane down.
    Mr. Kutz, do you think the substances that GAO smuggled in 
were nothing more than fireworks, as Mr. Hawley had suggested?
    Mr. Kutz. I would go back to the video that we showed, the 
first video of the automobile trunk and the floor of the 
automobile being blown out, that was the item we brought on in 
2006. And the incendiary device that was the intense heat 
burning was the other device we brought on. Whether they would 
bring down an aircraft or not, I don't know. But they would 
certainly threaten the passengers and could cause serious 
damage.
    Chairman Waxman. Do you think that they were minimizing the 
true dangers with that statement?
    Mr. Kutz. To call it a science experiment or something, I 
think that trivializes it, yes.
    Chairman Waxman. Mr. Hawley, you appear to think that these 
GAO tests are insignificant. You say that you are only focused 
on the serious threats. We all just saw the video of the 
explosions and that is a serious threat.
    In this morning's Washington Post, this is what TSA says: 
``There is nothing in the report that is news to us.'' Last 
year, you failed to prevent explosives from getting onto 
airplanes, you promised to improve your performance. But now we 
learn that GAO was again able to bring explosive materials onto 
planes.
    The problem is that the news is the same, it is not getting 
better. And that is unacceptable, you are failing. Here is what 
else TSA said: ``We don't change security procedures in knee-
jerk fashion.'' GAO's first report was issued in February 2006. 
That was 19 months ago. I want to know what you are going to 
change now, so that we are not here next year facing exactly 
the same situation.
    Mr. Hawley. I appreciate the question. The answer is that 
all this training I was talking about in terms of the 
checkpoint drills that we now do throughout the system every 
day, that is added. I believe that is probably the best thing 
that we can do at this point, is actually from our own covert 
testing, which drills down into the specifics of the 
vulnerability, that was identified and they recommended this. 
We followed the recommendations of our covert testers.
    I think the technical issues about what the GAO tested are 
a separate debate, and we probably don't completely agree on 
it. However, the results of it I take. I think it is a valuable 
lesson to learn, and the issue of explosives or homemade 
chemicals, whether they work or don't work. We have to be alert 
to it. I should also say, as I said in my opening, that I 
identified and TSA identified those vulnerabilities in 2005. So 
we know what the vulnerabilities are. As I laid out, we have 
put in place quite a few measures, and I think I have provided 
the committee with that, that are directed at improvement.
    And have we closed the vulnerability? No. But we do 2 
million passengers a day and 38 tests over 3 months is probably 
not statistically significant. It is directionally significant 
and I think we have to take it as valuable input. But it is not 
something on which the public should panic or should be 
concerned about the overall system. These are known 
vulnerabilities. The GAO is helping us in terms of addressing 
them and that is really what the story is.
    Chairman Waxman. Last year, you said you were going to do 
more training of personnel as well. I guess the point I want to 
drive home is that we are going to ask for this GAO report 
again next year, and you are on notice. We don't want to have 
to hold a hearing where we get a report that GAO came in and 
gave us a very discouraging picture. We don't want TSA to 
minimize it, we don't want to scare people but I don't want you 
to minimize it. I think you should take this one seriously, and 
I didn't feel that you took the first one as seriously as you 
should.
    So I hope that we can continue to talk about all the 
efforts that are going to be made to assure the public in 
reality that as many of the vulnerabilities as we face are 
going to be reduced and that we are going to get safer and 
safer in our transportation.
    Mr. Hawley. I can assure you that everybody at TSA has no 
question about the seriousness of which I take IED penetration 
drills and the significance of this. So yes, sir.
    Chairman Waxman. Thank you.
    Mr. Davis, any further comments?
    Mr. Davis of Virginia. I just have a couple. I want to 
clarify a point that was talked about earlier. Mr. Hawley, as 
you understand it, and then I will ask Mr. Cooney and Mr. Kutz 
to comment, was what the GAO got past security the same 
elements that were in the video played earlier? What is your 
understanding?
    Mr. Hawley. My understanding was that they were in fact 
different.
    Mr. Davis of Virginia. OK. Mr. Cooney, Mr. Kutz.
    Mr. Cooney. They were the same as in the video.
    Mr. Kutz. Yes, Mr. Cooney is one of the ones that actually 
did the testing. So he has first-hand knowledge of what was 
brought onto the plane, because he is one of he ones that had 
it in his bags and on his person.
    Mr. Davis of Virginia. OK.
    Mr. Hawley. I think the issue, it is not a trivial issue 
that in the sense as we evaluate the layers of security, if in 
fact what you brought to the checkpoint was able to blow up a 
plane, that is one thing. And if you have to----
    Mr. Davis of Virginia. Well, they never said it was able to 
blow the plane up. They could obviously cause damage, right? 
But there is no allegation here that it would blow the plane 
up?
    Mr. Cooney. That is correct, sir.
    Mr. Hawley. So I think I would just stand with----
    Mr. Davis of Virginia. You could open up the door, the 
emergency door of the plane and do damage as well. I think they 
were very careful not to make the allegation it would blow it 
up.
    Mr. Hawley. The key point for the public is that we are in 
agreement on the need to continue to close down vulnerabilities 
everywhere in the system. I think the differentiation is, 
because of the distinctive nature of the video, people say, oh, 
my goodness, this could happen to my plane. And the situation, 
that is not what is actually portrayed in this data. The data 
points out and recognizes vulnerabilities that we recognize 
exist, they discover they exist. And we all agree they need to 
be closed.
    Mr. Davis of Virginia. TSA has recognized the threat of 
explosive bomb components being brought on board in carry-on 
bags some time ago. You spent millions of dollars funding the 
development of a high quality auto explosive detection system 
to meet the threat, a technology that is successfully used to 
screen checked baggage, is that correct?
    Mr. Hawley. And now recently carry-on baggage.
    Mr. Davis of Virginia. OK. What has your agency done to 
advance this technology at a passenger screening checkpoint?
    Mr. Hawley. The science and technology division of DHS does 
the R&D for the Department. My understanding is they put 
something close to $1 billion of investment into the IED 
research and development area. The key point for us is the R&D 
discoveries in the next short period of time aren't immediately 
deployable. Our job is to use what is available today to limit 
the gaps until future technology is developed.
    Mr. Davis of Virginia. So you are using AT machines today 
as opposed to the EDS? Or could you use both?
    Mr. Hawley. We use both. There is the old-fashioned x-ray, 
which is a single source----
    Mr. Davis of Virginia. Right, AT machines, as I understand 
it, don't provide a 360 degree view.
    Mr. Hawley. No, but they can get pretty close.
    Mr. Davis of Virginia. And they don't provide a 3-D image 
for the screeners to view the baggage?
    Mr. Hawley. That is correct as far as I know.
    Mr. Davis of Virginia. But they do provide a cheaper price?
    Mr. Hawley. Exactly. And we can deploy them extraordinarily 
widely. And they have very low maintenance. So that is a 
factor.
    I think a mix is important. The auto EDS, as they call it, 
very excellent technology. We are buying 20 more, I hope, in 
2008. But if we can get 500 of the ATs out, that covers a lot 
of ground and is upgradable over time with better software. So 
I think that is a good business decision.
    Mr. Davis of Virginia. For 2007, the President initially 
requested $80.52 million for emerging technologies, is my 
understanding. In addition, he requested $25 million for 
checkpoint explosives detection equipment and pilot screening 
technologies in the emergency supplemental, for a total of $105 
million for emerging technologies in 2007. Congress provided 
the requested funds, but the agency still only spent $50 
million on the emerging technology, checkpoint technologies.
    Mr. Hawley. Those numbers don't match what I have in my 
head. I clearly can go back and reconcile those.
    Mr. Davis of Virginia. I guess the question is, we have 
provided close to $105 million, my understanding is it has not 
all been spent. I guess what we would like to know from a 
committee perspective is, what hasn't been spent, why not, what 
is in the pipeline, just so----
    Mr. Hawley. I will have to get back to you on what has been 
spent. We have asked for $136 million in checkpoint 
technologies. It is perhaps a different category than what you 
are talking about. But we have significantly spent in that 
area. We used up to buy the 250 AT machines, I believe what we 
had in 2007. I will have to confirm those numbers. But we have 
continued to request significant additional funds in 2008.
    Mr. Davis of Virginia. The last thing I would ask you is, 
how are we in coordination with other nations at this point? 
Some of them have, many of them are not as strict as we are. 
But they are subject to the same kind of vulnerabilities that 
we are.
    Mr. Hawley. Yes.
    Mr. Davis of Virginia. How is that coordination?
    Mr. Hawley. I think that is absolutely critical. Because if 
we get our U.S. domestic secure and somebody is able to board a 
flight overseas and hijack it or blow it up, that is the same 
result. So we depend on our international partners. We have 
created a new group at TSA that does this global strategy. We 
moved our head of intel, intelligence, to the head of that, so 
that he would have the credibility with other nations in 
discussing security matters, for instance, on shoes. We feel 
very strongly about shoe screening and working with our 
partners to do shoe screening is something that is not popular, 
but we think is effective from a security point of view.
    So I think over the next 5 years and beyond, the degree to 
which U.S. security measures tie in with our international 
partners is a big opportunity and important.
    Mr. Davis of Virginia. Well, no question. But I guess my 
question is, how is that partnership?
    Mr. Hawley. That is it.
    Mr. Davis of Virginia. Are they all responding? Are we 
having some that are balking a little bit at it?
    Mr. Hawley. We have extraordinary cooperation with our 
neighbors to the north and south, Canada and Mexico. The 
European Union, clearly the U.K. we are very close with. I have 
just returned from working with some of our Asian partners. I 
expect that closes the loop.
    The big opportunities are in Africa and South America. 
There are a lot of governments there that want to do first-rate 
security. Our job is to give them the training in something 
that is accessible. We can't give them million dollar pieces of 
equipment and say we want you to deploy this. We have to find 
things that are less expensive but do provide security value 
that can in fact be deployed around the world.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    I want to thank the three of you for your presentations to 
us, and the GAO for your excellent work. We hope that next 
year, when we look at a GAO report we are going to see a lot of 
improvement and we will have better news. Because at this time 
of year, people want the good news and their anxieties eased. 
There are too many vulnerabilities. And we want those 
vulnerabilities fixed.
    Thank you very much. The committee stands adjourned.
    [Whereupon, at 12:33 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Diane E. Watson and Hon. 
Bill Sali follow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
